Case: 20-10682

Document: 00515881608

Page: 1

Date Filed: 06/01/2021

tHmtstj UrtateSlCourt of&ppeal?
for tfje jftftlj Ctrtutt

United States Court of Appeals
Fifth Circuit

FILED
No. 20-10682

June 1,2021
Lyle W. Cayce
Clerk

William Paul Langrum, II,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-477

ORDER:
Paul Langrum II, Texas prisoner # 1884962, moves for a certificate of
appealability (COA) to appeal the denial of his 28 U.S.C. § 2254 petition
challenging his conviction for murder. In his § 2254 petition, he raised the
following claims for relief: (1) trial counsel failed to subject the State’s case
to meaningful adversarial testing with available impeachment evidence;
(2) trial counsel failed to investigate and present evidence; (3) trial counsel
failed to present expert testimony; and (4) trial counsel failed to object to the
admission of an extraneous offense. The district court dismissed claims one
and four as time barred and two and three as meritless.

A

" \

Case: 20-10682

Document: 00515881608

Page: 2

Date Filed: 06/01/2021

.No._20-10_682

With regard to his time-barred claims, Landrum has failed to show
“that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484
(2000). As to his constitutional claims, Landrum has not shown that
“reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong. ” Id.
In light of the preceding, Langrum’s CO A motion is DENIED.

Kurt D. Engelmardt
United States Circuit Judge

2

A('k h'

IN THE UNITED STATES DISTRICT COURT
N OR'THERN DIS TRICT UFTEXAS
DALLAS DIVISION
WILLIAM PAUL LANGRUM, II,
Petitioner,

§
§
§

§

v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice
Correctional Institutions Division,
Respondent.

Civil Action No. 3:19-CV-477-L-BK

§
§
§
§
§
§

ORDER
The Findings, Conclusions and Recommendation of the United States Magistrate Judge
(“Report”) (Doc. 10) was entered on February 4, 2020, recommending that the court deny and
dismiss with prejudice Petitioner’s habeas petition brought pursuant to 28 U.S.C. § 2254 and his four
ineffective assistance of counsel claims. With respect to the first and fourth grounds or claims
asserted by Petitioner, the magistrate judge determined that these claims are time barred, and
Petitioner is not entitled to equitable tolling. The magistrate judge determined that the remaining
ineffective assistance of counsel claims, as pleaded, are without merit and insufficient to entitle him
to habeas relief.
Petitioner filed objections (Doc. 11) in support of first and fourth grounds, which were
docketed on February 24, 2020, contending that he is entitled to equitable tolling. For the reasons
stated by the magistrate judge, the court disagrees and overrules Petitioner’s objections.
Having reviewed the pleadings, file, record in this case, and Report, and having conducted
a de novo review of that portion of the Report to which objection was made, the court determines
that the findings and conclusions of the magistrate judge are correct, and accepts them as those of
Order - Page 1

/) ppenA ’\K

the court. Accordingly, the court denies Petitioner’s section 2254 habeas application (Doc. 1) and
dismisses with prejudice this habeas action and Petitioner’s ineffective assistance of counsel claims
for the reasons stated in the Report.
Considering the record in this case and pursuant to Federal Rule of Appellate Procedure
22(b), Rule 11(a) of the Rules Governing §§ 2254 and 2255 proceedings, and 28 U.S.C. § 2253(c),
the court denies a certificate of appealability.* The court determines that Petitioner has failed to
show: (1) that reasonable jurists would find this court’s “assessment of the constitutional claims
debatable or wrong;” or (2) that reasonable jurists would find “it debatable whether the petition
states a valid claim of the denial of a constitutional right” and “debatable whether [this court] was
correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). In support of this
determination, the court accepts and incorporates by reference the Report. In the event that a notice
of appeal is filed, Petitioner must pay the $505 appellate filing fee or submit a motion to proceed in
forma pauperis on appeal.
It is so ordered this 17th day of June, 2020.

Sam A. Lindsay
United States District Judge

' Rule 11 of the Rules Governing §§ 2254 and 2255 Cases provides as follows:
Certificate of Appealability. The district court must issue or deny a certificate of
(a)
appealability when it enters a final order adverse to the applicant. Before entering the final order, the
court may direct the parties to submit arguments on whether a certificate should issue. If the court
issues a certificate, the court must state the specific issue or issues that satisfy the showing required
by 28 U.S.C. § 2253(c)(2). If the court denies a certificate, the parties may not appeal the denial but
may seek a certificate from the court of appeals under Federal Rule of Appellate Procedure 22. A
motion to reconsider a denial does not extend the time to appeal.
(b)
Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to
appeal an order entered under these rules. A timely notice of appeal must be filed even if the district
court issues a certificate of appealability.
Order - Page 2

In The United States District Court
Dallas Division
William Paul Langrum, II,
#1884962,
Petitioner,

§
§
§
§

v.

§ Civil Case No. 3:19-CV-477-L-BK

Lorie Davis, Director,
Texas Department of Criminal
Justice, Correctional
Institutions Division Div.,
Respondent.

§
§
§
§
§
§

Findings, Conclusions and Recommendation
of the United States Magistrate Judge
Pursuant to 28 U.S.C. § 636(b) and Special Order 3, William Paul Langrum’s petition for
writ of habeas corpus under 28 U.S.C. § 2254, was referred to the United States magistrate judge
for case management, including the issuance of findings and a recommended disposition. As
detailed here, the petition should be summarily DISMISSED WITH PREJUDICE. l

I.

BACKGROUND
In 2013, a jury found Langrum guilty of capital murder and assessed punishment at life

imprisonment. Langrum v. State, No. FI 160330 (Crim. Dist. Ct. No. 5, Dallas Cty., Tex., Sep.
12, 2013), aff’d, No. 05-13-01489-CR, 2015 WL 468403, at *1 (Tex. App.—Dallas, Feb. 2,
2015, pet. ref d). His subsequent pursuit of state habeas relief was unsuccessful. Ex parte

i

See Rule 4(b) of the Rules Governing Section 2254 Proceedings Courts (“If it plainly
appears from the petition and any attached exhibits that the petitioner is not entitled to relief in
the district court, the judge must dismiss the petition and direct the clerk to notify the
petitioner.”).

Langrum, No. WR-87,370-01 (Tex. Crim. App. Mar. 28, 2018) (denying relief without written
order based on the trial court’s findings without a hearing).2 On October 19, 2018, Langrum
filed this pro se federal habeas petition, claiming ineffective assistance of counsel.3 Doc. 1.
Specifically, he asserts trial counsel failed to: (1) subject the State’s case to meaningful
adversarial testing with available impeachment evidence; (2) failed to investigate and present
evidence; (3) failed to present expert testimony; and (4) failed to object to admission of an
extraneous offense.
As his federal petition appeared untimely, the Court directed Langrum to respond
regarding the application of the one-year limitations period, which he has now done. Doc. 8.
Having now reviewed all the pleadings, the Court concludes that the first and fourth grounds are
barred by the applicable statute of limitations and that the second and third grounds fail on the
merits. Consequently, the petition should be summarily dismissed.
II.

ANALYSIS
A. First and Fourth Grounds are Time Barred
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA) establishes a one-

year statute of limitations for state inmates seeking federal habeas corpus relief, which the Court
may consider sua sponte after providing notice and an opportunity to respond. See 28 U.S.C. §
2244(d); Day v. McDonough, 547 U.S. 198, 209-10 (2006). Langrum asserts that his trial
counsel was constitutionally ineffective in failing to impeach witnesses Sophia Dorian and
Officer Russell Barrett with evidence available at trial and to object to the admission of an

2 The habeas docket sheet is available at http://search.txcourts.gov/Case.aspx?cn=WR-87,37001&coa=coscca (last visited Dec. 12, 2019).
3 Langrum’s federal petition was initially filed in the United States District Court for the Eastern
District of Texas and subsequently transferred to this Court. Doc. 1; Doc. 3.
Page 2 of 8

extraneous offense—an aggravated robbery witnessed by Officer Barrett—which counsel had
sought to exclude through a motion in limine. Langrum does not allege any facts that could
trigger a starting date under Section 2244(d)(l)(B)-(D) as to these grounds. Indeed, the facts
supporting the first and fourth grounds became or could have become known prior to the date on
which his conviction became final. Moreover, Langrum’s reliance on Section 2244(d)(1)(D) is
limited to his second and third grounds, which relate to Investigator Bill Hunt and Dr. Robert
Benjamin, the DNA expert. Doc. 1 at 9; Doc. 8 at 1-4. As such, the one-year limitations period
applicable to Langrum’s first and fourth grounds for relief began to mn from “the date on which
the judgment became final by the conclusion of direct review or the expiration of the time for
seeking such review.”
Langrum’s conviction became final on July 21, 2015—90 days after the Texas Court of
Criminal Appeals refused his petition for discretionary review on April 22, 2015. See Langrum,
2015 WL 468403, at *1; SUP. CT. R. 13(1) and (3); Clay v. United States, 537 U.S. 522, 528 n. 3
(2003). The limitations period expired one year later, on July 20, 2016. And because Langrum
did not sign his state application until December 14, 2016, almost five months after the
limitations period expired, he is not entitled to statutory tolling during the pendency of his state
application.4 See 28 U.S.C. § 2244(d)(2); Scott v. Johnson, 227 F.3d 260, 263 (5th Cir. 2000).

4 The state application is deemed filed on December 14, 2016, the date on which Langrum
indicated it was signed and, therefore, likely it was also handed to prison officials for mailing.
Richards v. Thaler, 710 F.3d 573, 579 (5th Cir. 2013) (extending prison mailbox rule to state
habeas application); Application for Writ of Habeas Corpus in No. W1160330A is available at
http://courtecom.dallascounty.org/publicaccess/ (last visited Dec. 12, 2019).
Page 3 of 8

Thus, the petition sub judice, deemed filed on October 7, 2018, is clearly untimely as to
Langrum’s first and fourth claims absent equitable tolling.5
Langrum’s filings, however, even when liberally construed in light of his pro se status,
do not present due diligence and “rare and exceptional circumstances” warranting equitable
tolling. Holland v. Florida, 560 U.S. 631, 649 (2010) (to be entitled to equitable tolling, a
petitioner must show “(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way and prevented timely filing” (quotations and quoted
case omitted)). Unexplained delays do not evince due diligence or rare and extraordinary
circumstances. Fisher v. Johnson, 174 F.3d 710, 715 (5th Cir. 1999) (concluding “equity is not
intended for those who sleep on their rights” (quotation and quoted case omitted)).
Furthermore, this is not a case in which Langrum pursued “the process with diligence and
alacrity.” Phillips v. Donnelly, 216 F.3d 508, 511 (5th Cir. 2000) (per curiam). As previously
noted, he squandered the entire one-year period. He waited more than seventeen months from
the date his conviction became final to file his state habeas application and delayed more than six
months after his state application was denied before he submitted his federal petition for mailing.
Langrum’s pro se status and unfamiliarity with the law do not suffice as a basis for equitable
tolling. See Felder v. Johnson, 204 F.3d 168, 171 (5th Cir. 2000) (“[P]roceeding pro se is not a
‘rare and exceptional’ circumstance because it is typical of those bringing a § 2254 claim.”);
Turner v. Johnson, 177 F.3d 390, 392 (5th Cir. 1999) (per curiam) (“[NJeither a plaintiffs

5 For purposes of this recommendation, the federal petition is deemed filed on October 7, 2018,
the date Petitioner certifies placing it in the prison mail system. Doc. 1 at 10; see Rule 3(d) of
the Rules Governing Section 2254 Proceedings (providing “mailbox rule” is applicable to
inmates who use jail/prison’s internal mailing system).
Page 4 of 8

unfamiliarity with the legal process nor his lack of representation during the applicable filing
period merits equitable tolling.”).
Consequently, Langrum has not met his burden to establish that equitable tolling is
warranted in this case. See Alexander v. Cockrell, 294 F.3d 626, 629 (5th Cir. 2002) (per
curiam) (party seeking equitable tolling has burden of showing entitlement to such tolling).
Accordingly, Langrum’s first and fourth claims should be dismissed as time barred.
III.

Remaining Claims Lack Merit
A. Standard of Review
A petitioner is not entitled to habeas corpus relief unless the state court’s adjudication on

the merits:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
The petitioner bears the burden of establishing that he is entitled to relief. Woodford v.
Visciotti, 537 U.S. 19, 25 (2002). However, that burden is “difficult to meet,” Harrington v.
Richter, 562 U.S. 86,102, 105 (2011), because the state court’s decision is reviewed under a
“highly deferential” standard and afforded the “benefit of the doubt.” Woodford, 537 U.S. at 24
(citation and internal quotation marks omitted). Section 2254(d) “was meant to stop just short of
imposing a complete bar to federal court relitigation of claims already rejected in state court
proceedings, allowing for federal habeas relief only where there have been ‘extreme
malfunctions in the state criminal justice systems.’” Wilson v. Cain, 641 F.3d 96,100 (5th Cir.

Page 5 of 8

2011) (quoting Richter, 562 U.S. at 102). Consequently, as long as ‘“fairminded jurists could
disagree’ on the correctness of the state court’s decision,” federal habeas relief should not be
granted. Richter, 562 U.S. at 102 (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)).
Explained differently, “even if the federal court disagrees with the state court ruling, the federal
court should not grant habeas relief unless the state court ruling was objectively unreasonable.”
Wilson, 641 F.3d at 100; see Richter, 562 U.S. at 101 (“an unreasonable application of federal
law is different from an incorrect application of federal law”) (quotations and quoted case
omitted; emphasis in original).
B. Second and Third Grounds Fail
In his remaining two grounds, Langrum asserts trial counsel rendered ineffective
assistance in failing to investigate his case and in failing to present evidence and any expert
testimony. Doc. 1 at 6-7. Langrum avers that he never met or heard of Bill Hunt and Dr. Robert
Benjamin, the investigator and DNA expert respectively, who he recently learned were hired by
trial counsel, Richard Franklin. Langrum contends that counsel’s file does not include even “one
disclosure produced by Hunt’s appointment” and complains, inter alia, that Hunt never
interviewed witnesses germane to his defense, did “a reconstruction of the crime scene,” or
reviewed the police dash-cam recording. Doc. 1 at 6. He also argues that the “DNA results were
contorted and/or unexplained.” Doc. 1 at 7. However, the same ineffective assistance of counsel
claims were rejected by the state habeas court.6
Langrum has not presented adequate support for his claim that trial counsel was
ineffective for failing to investigate. Allegations of a counsel’s failure to investigate must state

6 The January 9, 2018 Findings of Fact and Conclusions of Law in No. W1160330A are
available at http://courtecom.dallascounty.org/publicaccess/ (last visited Dec. 12, 2019).
Page 6 of 8

with specificity what the investigation “would have revealed and how it would have altered the
outcome of the trial.” See Lockett v. Anderson, 230 F.3d 695, 713 (5th Cir. 2000). Langrum
plainly fails to meet his burden. See Strickland v. Washington, 466 U.S. 668, 689 (1984). He
does not allege, much less establish, how further investigation would have helped his defense
and, ultimately affected the outcome of his trial. Thus, Langrum fails to satisfy the prejudice
prong under Strickland.
Further, Langrum does not identify any expert or other witness who could have testified
at trial. The mere fact that counsel may have consulted with a DNA expert, with nothing more,
is insufficient. He also fails to allege with specificity the substance of any missing testimony or
explain how such testimony would have been favorable to his defense. See Day v. Quarterman,
566 F.3d 527, 538 (5th Cir. 2009) (requiring petitioner to “name the witness, demonstrate that
the witness was available to testify and would have done so, set out the content of the witness’s
proposed testimony, and show that the testimony would have been favorable to a particular
defense”); Evans v. Cockrell, 285 F.3d 370, 377-78 (5th Cir. 2002) (denying uncalled expert
witness claim where petitioner failed to present evidence of what scientific expert would have
stated if called); Sayre v. Anderson, 238 F.3d 631, 636 (5th Cir. 2001) (denying uncalled
witnesses claim because of failure to present affidavits from missing witnesses); Alexander v.
McCotter, 775 F.2d 595, 602 (5th Cir. 1985) (rejecting failure to interview claim because of
failure to show who uninterviewed witnesses were or subject matter of their potential testimony).
Because Langrum has not demonstrated that the state court’s decision rejecting his
ineffective-assistance claims was contrary to or an unreasonable application of clearly
established federal law, his third and fourth claims have no merit.

Page 7 of 8

IV.

CONCLUSION
For the foregoing reasons, Langrum’s petition for writ of habeas corpus should be

summarily DISMISSED WITH PREJUDICE as barred by the one-year statute of limitations,
as to his first and fourth claims, and as meritless, as to his second and third claims. And as no
claims will remain, the Clerk of the Court should be directed to close this case.
SO RECOMMENDED on February 4, 2020.

RENEE HARRIS TOLIVER
UNKTEEPSTATES MAGISTRATE JUDGE

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of this report and recommendation will be served on all parties in the manner provided by
law. Any party who objects to any part of this report and recommendation must file specific
written objections within 14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); Fed.
R. Crv. P. 72(b). An objection must identify the finding or recommendation to which objection is
made, the basis for the objection, and the place in the magistrate judge’s report and
recommendation the disputed determination is found. An objection that merely incorporates by
reference or refers to the briefing before the magistrate judge is not specific. Failure to file specific
written objections will bar the aggrieved party from appealing the factual findings and legal
conclusions of the magistrate judge that are accepted or adopted by the district court, except upon
grounds of plain error. See Douglass v. United Services Automobile Ass’n, 79 F.3d 1415, 1417
(5th Cir. 1996), modified by statute, 28 U.S.C. § 636(b)(1) (extending the time to file objections
to 14 days).

Page 8 of 8

IN THE UNITED STATES DISTRICT COURT
------ NOR-THERN-DIS-TRieT-OF-T-E-X-AS-----DALLAS DIVISION
WILLIAM PAUL LANGRUM, II,

§
§
§

Petitioner,
v.

§

Civil Action No. 3:19-CV-477-L-BK

§
§
§
§
§
§

LORIE DAVIS, Director,
Texas Department of Criminal Justice
Correctional Institutions Division,
Respondent.

JUDGMENT
This judgment is entered pursuant to the court’s order, dated June 17,2020. It is, therefore,
ordered, adjudged, and decreed that this habeas corpus action is dismissed with prejudice. The
clerk of the court shall transmit a copy of this judgment and a copy of the order dated June 17,2020,
accepting the Findings, Conclusions and Recommendation of the United States Magistrate Judge,
to Petitioner.
Signed this 17th day of June, 2020.

‘•''"'""^Sam A. Lindsay
United States District Judge

Judgment - Solo Page

*

*
*■

WRIT NO. Wll-60330-L(A)
EX PARTE

*

IN THE CRIMINAL

WILLIAM LANGRUM,

*

DISTRICT COURT NO. 5

APPLICANT

*

DALLAS COUNTY, TEXAS

TRIAL COURT’S FINDINGS OF FACT AND CONCLUSIONS OF LAW
i

On this day came on to be considered Applicant’s Application for Writ of Habeas
!

Corpus and the State’s Response. Having considered these pleadings and the official court
i

records, as well as all exhibits and affidavits offered by both parties, this Court enters the
following findings of fact and conclusions of law.

i

!
i

HISTORY OF THE CASE
Applicant was convicted of capital murder and was sentenced to life without parole.
His conviction was affirmed on direct appeal. See Langrum v. State, No. 05-13-01489-CR
(Tex. App. - Dallas Feb. 3, 2015, pet. ref d) (not designated for publication).
This is his first application for writ of habeas corpus.
ISSUES RAISED IN APPLICATION
Applicant asserts that he received ineffective assistance of counsel at trial. He asserts
that counsel failed to: (1) subject the State’s case to meaningful adversarial testing with
available impeachment evidence; (2) failed to investigate and present evidence; (3) failed to
present expert testimony; and (4) failed to object to admission of an extraneous offense.

Findings of Fact and Conclusions of Law

Page 1 of 5

r
■*

RELEVANT EVIDENCE
I

The Court of Appeals’ opinion properly recites the facts of the case.
Richard K. Franklin, Applicant’s trial counsel, has responded to the allegations by
affidavit which is attached hereto.
FINDINGS OF FACT
Richard Franklin was appointed to represent Applicant in this case.
Ground One
Detective Elzey interviewed witness Dorian. (RR-5: 98). Elzey retired from the
Dallas Police Department and did not testify in this trial. (RR-5: 94). Elzey’s notes fail to
mention that Dorian had seen a portion of the offense (the complainant hanging out of the

i

car window). (RR-5:98). At trial, Dorian testified to that. (RR-4:43-45). Franklin did not
impeach Dorian with the inconsistencies in her testimony versus that in Detective Elzey’s
notes. However, Franklin questioned Detective Lundberg, the lead detective on the case,
about the fact that Elzey’s notes lacked any statements regarding Dorian having witnessed
part of the offense. (RR-5: 98,103-104,105-106). Lundberg testified that he believed
Dorian told Elzey what she had seen but that Elzey just failed to write it down. (RR-5:106).
Had Franklin attempted to impeach Dorian with this omission, she would have indicated that
she told Elzey what she’d seen or that she was making it up as she testified at trial (and to the
prosecutor when they spoke). The was a minor element in the case. Another witness, Nicole
Green, also identified the car Applicant was driving and a bloody towel was found in the car

Findings of Fact and Conclusions of Law

Page 2 of 5

with the complainant’s blood on it. (RR-4: 81, RR-5: 42-43, 46-47, 60-61,”64-65 ,State’s
Exhibits 68 and 69). This links Applicant to the offense.
Officer Barrett testified that there were two car chases. (RR-4: 98-101). Applicant
complains that Barrett lied about the first chase because it was not mentioned in the affidavit
for arrest warrant (Exhibit B attached to Memorandum). (Application at 6). Applicant offers
no evidence to support his claim. Officer Barrett was in plain clothes and called for
assistance from uniformed officers when he observed Applicant rob a man of his blue bag
with a knife; Officers Stewart and Sharkey responded to Barrett’s call. (RR-4: 96-101 ).
Those two officers were involved in a chase (both in a vehicle and on foot). (RR-4:121-125,
136). Exhibit B mentions both “chases”.
Applicant also complains that Franklin did not question Officer Stewart’s testimony
that a Bible fell out of the purse in the car and was left in the car. (Application at 7). He
argues that Stewart’s testimony is not supported by State’s Exhibit 91. To the contrary, the
Bible is pictured in State’s Exhibit 91 on top of the phone books in the back seat.
Applicant’s assertion that Stewart’s testimony does not corroborate State’s Exhibit 91 is
without merit.
Ground Two
Bill Hunt was appointed to assist Franklin to investigate this case. Applicant
complains that Franklin never spoke with Thomas, Applicant’s former girlfriend from whom
he’d stolen the car used in the offense. (Application at 8). Thomas denied that she told Det.

Findings of Fact and Conclusions of Law

Page 3 of 5

Lundberg that Applicant told her that he couldn’t find a job so he^was'goingtostartrobbingpeople. (RR-4:144-145). After reviewing the video ofthe interview, Thomas acknowledged
that she made the statement on video. (RR-4: 145). Applicant fails to present an affidavit
from Thomas indicating Franklin or Hunt never spoke with her. The State was entitled to
impeach Thomas when she denied making the statement. Further, Franklin indicates that
Applicant failed to provide him with an defense to the allegations.
Ground Three
Franklin obtained a DNA expert, Dr. Robert Benjamin, who reviewed the evidence
and found the analysis to be correct.
Ground Four
As shown by the Court of Appeals’ opinion (attached to the State’s Response),
counsel filed a motion in limine seeking to keep out the evidence of the extraneous robbery
that occurred within 45 minutes of the robbery/murder in this case. The trial court, after
hearing arguments, allowed the evidence as same transaction contextual evidence and found
that its probative value outweighed the prejudicial effect. The trial court limited the evidence
to testimony from undercover Officer Barrett, who witnessed the offense occurring.
CONCLUSIONS OF LAW
Applicant has failed to prove that he received ineffective assistance of counsel.
Applicant did not prove that counsel’s representation fell below an objective standard of
reasonableness. Nor did he prove that there is a reasonable probability that, but for counsel’s

Findings of Fact and Conclusions of Law

Page 4 of 5

I

r

.a

unprofessional'errorsrtheresult'oftheproceeding would-liavedi'fFereci.-—- ■■■..
!
!

_

Applicant has not been denied any of the rights guaranteed him by the United S tates
Constitution or the Texas Constitution.
Applicant is legally confined and restrained.
COURT.’S RECOMMENDATION
This Court recommends that this writ of habeas corpus be DENIED.
\

ORDERS OF THE COURT
In implementing the Court’s Finding of Fact and Conclusions of Law, the Clerk will:
1. Prepare a transcript of papers in this cause and transmit the Court’s Order and the
Findings of Fact and Conclusions of Law, including the judgment and indictment, all plea
papers, if any, and the Court of Appeals opinion, if any, to the Court of Criminal Appeals as
!

provided by Tex. Code Crim. Proc. Ann. art. 11.07,
2. Send a copy of this Order and the Findings of Fact and Conclusions of Law to the
Applicant, William Langrum, # 01884962, Polunsky Unit, 3872 FM 350 South, Livingston,
I

TX 77351, and to counsel for the State, Paige Williams, Assistant District Attorney, 133 N.
Riverfront Blvd. LB-19,'Dalias, TX 75207 by depositing same’in the U.S. Mailr

!

Signed and entered January

s

,2018.

.9

JUDGE
r '

hx
i

Findings of Fact and Conclusions of Law

r

Page 5 of 5

'i

V

*

m

!!

mattered. That was the fact, among others, that resulted in the conviction, not an extraneous
aggravated robbery.”

SUBSCRIBED AND SWORN TO BEFORE ME, on the Bfi day of/VmAsJaj
certify which witness my hand and official seal.

.....—DIANE ROBERTS

]/&&

Notary Public
] WSTATE OF TEXAS
I
MyCoir.m F..\p. August 10. 2017

\

i

i

I

, 2017, to

